                                                                                         loseout
                                           NATIONAL SCIENCE FOUNDATION
                                              4201 WILSON BOULEVARD                            .   ..:.<.
                                             ARLINGTON, VIRGINIA 22230




           OFFICE OF
       INSPECTOR GENERAL


MEMORANDUM

Date:             March 3 1,2000

To:           -   File #I991 10045'

From:


Via:                                                                      tigations

Re:
                                      i(



Background
Tn November 1999. NSFIContracts Policy and Oversight (CPO) referred a matter to our


the fiscal years ending 12131/97 and 12/31/96, noted that l a c k e l l an official COI policy.
NSF requires each grant-seeking organization(&p1oying 50 or more ernployeesto have an
official COI policy. As of October 1, 1995,pSF required the authorized organizational
representative (AOR) to certify with each pr6posal subdission that the institution has an official
COI policy.




             (703) 306-2 100 OIG Anonymous Hotline (800) 428-2189 http://www.nsf.gov/oig/oig
                                   Electronic mail hotline: oig@nsf.gov                 II
                                                                                        loseout
                                                                                    q   e *of2

on two of these three awards. As the AOR, he                          d an existing policy, which it
did not have. As a result of these findings, CPO froze                          eveloped and
instituted a COI policy and allowed NSF's                                     ) to review it.

Investigation


The AOR admitted that             not have a                      He further explained that it was
not until the auditors ale e   im in the A-133 that         eded a formal policy that he began
working to develop one.

In an interview at          AOR explained that          as an inherent view of integrity, affecting
how it handles its   I. He said that people             understood the bidding process - no
spouses, no equity positions, gtc. He said that he did pdt.pick up on the 1995 COI policy
requirement outlined in the NSF Grants Policy Guideline.



                                                                       .   .
Findings

Based on our review of subcontracts, participant support, and miscellaneous source
documentation and account summaries from all three post-1 995 awards, there was no evidence
of unsupported, unallowable, and fraudulent expenses. Based on our review of the AOR's
information, we concluded that the AOR falsely certified to NSF on four proposals (three of
which were awarded) submitted after October 1, 1995 that c a d an official COI policy.

     completed a formalized COI policy, which OGC approved January 10,2000. CPO
            lifted its suspension.

On March 30,2000, we discussed the case with the U.S. Attorney's office in the Eastern District
of Virginia. The Assistant U.S. Attorney declined the case for prosecution. Because there was
no evidence of any misappropriate use of funds and DOJ declined prosecution, we closed this
case.
                                                                               ,>                 P
                                9
